I-

Case No.

I

IN THE
UNITED STATES SUPREME COURT

ji

?
ROSEMARY ANN LYNN,
Petitioner,
Against,
THE HONORABLE CLARE V. EAGAN-LORETTI,
Respondent.

On Writ Of Certiorari To The
United States Court Of Appeals
For the Tenth Circuit

<5

Appendix To The Petition For A Writ of Certiorari

Rosemary Ann Lynn-Pro Se
P.O. Box 701432-1432
Tulsa, Oklahoma 74170
(1+) 405-561-3953

TABLE OF CONTENTS
Page
Appendix A-( U.S. Dist. Ct. (Defamation Case Opinion and Order with
Judgment of Dismissal, dated June 26, 2019)........................................

la-4a

Appendix B-( U.S. Dist. Ct. (Civil RICO Case Opinion and Order with
Judgment of Dismissal, dated June 26, 2019)........................................

5b-8b

Appendix C (Certified Copy of Court of appeals opinion filed,
February 7, 2019).....................................................................

9c-23c

Appendix D-( U.S. Dist. Ct. (Defamation Compl.) dated June 21, 2019)

24d-35d

Appendix E-( U.S. Dist. Ct. (Civil RICO Compl.) dated June 21, 2019)

36e-54e

Appendix F-(U.S. Dist. Court Application For Temporary Restraining Order
With Equitable Relief and Order To Show Cause Why Preliminary Injunction
Should Not Issue)(With Order Dismissal dated July 2, 2019))........................

55f-60f

Appendix G-Audrey Louise Brown's Death Certificate

61g-63g

Appendix H-(General Durable Power of Attorney, Sept. 9, 2017)

64h-72h

Appendix I-(Advanced Medical Directive, Sept. 9, 2017)

73i-77i

Appendix J (Dr. Kelly A. James, P. hD. Mental Health Competence
Evaluation Report, October 15, 2017)...............................................

78j-75j

Appendix K-(Audrey Louise Brown's Irrevocable Spend Thrift Trust
October 18, 2017)................................................................................

86k-99k

Appendix L-(Memorandum of Audrey Louise Brown Irrevocable
Spendthrift Trust, October 18, 2017).............................................

100L-102L

Appendix M-(Audrey Louise Brown Declaration of Trust, Oct. 18, 2017)
(Schedule A & B to Trust Documentation, Oct. 18, 2017)........................

103m-113m

Appendix N-(Affidavit of Notary Joanne Gilmore, Jan. 7, 2019)
Appendix 0-(Affidavit of Tulsa County Sheriffs Deputy Reginald Cathey
Jan. 9, 2019)................................................................................................

114n-115n

116-0

Appendix P-(Affidavits of Maggie Arrendondo, dates
April 3, 2018 ).......................................................................................

117p-122p

Appendix Q-(Application To Reserve Litigation Funds, June 26, 2019
and Order Approving Application To Reserve Litigation Funds).........

123q-125q

Appendix R-(Rebecca Hunter's Forged Contract alleging
Audrey Louise Brown Hired Her....................................

126r

Appendix S-(Audrey's Check For $350.00 For Services Rendered (Home Visit) .... 127s
Appendix T-(Letter From Rebecca Hunter Regarding Audrey's

1

Case 4:19-cv-00331-CVE-JFJ Document 3 Filed in USDC ND/OK on 06/25/19 Page 1 of 3

UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF OKLAHOMA
r
ROSEMARY ANN LYNN,

-

1

Plaintiff,
v.

*

ANDREW GEORGE BROWN III,
Defendant.

)
)
)
)
)
)
)
)
)

Case No. 19-CV-0331-CVE-JFJ

OPINION AND ORDER
Now before the Court is plaintiff’s complaint (Dkt. #1). Plaintiff is proceeding pro se and,
consistent with Supreme Court and Tenth Circuit precedent, the Court will construe her pro se
pleading liberally. See, e.g., Haines v. Kemer. 404 U.S. 519, 520 (1972); Gaines v. Stenseng, 292
F.3d 1222, 1224 (10th Cir. 2002). On June 21, 2019, plaintiff filed a pro se complaint alleging
/j

claims of defamation and intentional infliction of emotional distress against defendant. The
complaint states that plaintiff and defendant are both citizens of Oklahoma. Dkt. # 1, at 1-2.
Plaintiff claims that defendant has repeatedly made false statements suggesting that plaintiff forged
documents concerning the estate of defendant’s sister, Audrey Brown. Id. at 3. Plaintiff also claims
that defendant has falsely alleged that plaintiff stole over $75,000 from Brown’s bank accounts. Id.
Defendant allegedly hired two persons to impersonate Tulsa Police Department officers who forced
**

plaintiff to sign documents containing false statements, and the documents were allegedly used to

n

convince a “subdued” state court probate judge to denyplaintiffguardianship over Brown. Id. at 4-6.

•j*

Plaintiff seeks damages in excess of $1 million. Id. at 11.

2

Case 4:19-cv-00332-CVE-JFJ Document 3 Filed in USDC ND/OK on 06/26/19 Page 2 of 3

Federal courts are courts of limited jurisdiction, and there is a presumption against the
exercise of federal jurisdiction. Merida Delgado v. Gonzales, 428 F.3d 916, 919 (10th Cir. 2005);
Penteco Corn. Ltd. Partnership--1985A v. Union Gas System, Inc., 929 F.2d 1519,1521 (10th Cir.
m
1991). The party invoking federal jurisdiction has the burden to allege jurisdictional facts
S

demonstrating the presence of federal subject matter jurisdiction. McNutt v. General Motors
Acceptance Corn, of Indiana. Inc., 298 U.S. 178, 182 (1936) (“It is incumbent upon the plaintiff
properly to allege the jurisdictional facts, according to the nature of the case.”); Montoya v. Chao,
296 F.3d 952,955 (10th Cir. 2002) (“The burden of establishing subject-matterjurisdiction is on the
party asserting jurisdiction.”). The Court has an obligation to consider whether subject matter
jurisdiction exists, even if the parties have not raised the issue. The Tenth Circuit has stated that
“[fjederal courts ‘have an independent obligation to determine whether subject-matter jurisdiction
exists, even in the absence of a challenge from any party,’ and thus a court may sua sponte raise the
question of whether there is subject matter jurisdiction ‘at any stage in the litigation.’” Image
Software, Inc, v. Reynolds & Reynolds Co., 459 F.3d 1044, 1048 (10th Cir. 2006).
Plaintiff asserts that the Court has diversity and federal question jurisdiction over this case.
The complaint alleges that plaintiff seeks damages in excess of “the minimal jurisdictional limits of
Tulsa County District Courts” and that venue is proper in this Court. Dkt. # 1, at 8. For the Court
to have jurisdiction under 28 U.S.C. § 1332, plaintiff must allege that the parties are citizens of

V

different states and that the amount in controversy exceeds $75,000. The Court will have diversity
jurisdiction over this case only if there is complete diversity among the parties, and this means that
“each plaintiff must be diverse from each defendant.” Ravenswood Inv. Co., L.P. v. Avalon
Correctional Servs., 651 F.3d 1219,1223 (10th Cir. 2011). Plaintiff states that she and many of the
2

3

Case 4:19-cv-00332-CVE-JFJ Document 3 Filed in USDC ND/OK on 06/26/19 Page 3 of 3

defendants are citizens of Oklahoma and it is apparent that complete diversity is lacking. The Court
will consider whether plaintiff s complaint could be construed to allege a claim arising under federal

T
%

law. Generally, the “well-pleaded complaint” rule requires that the federal question appear on the
face of the plaintiff s properly pleaded complaint. See Parley v. Sandia Corn., 236 F.3d 1200,1207
(10th Cir. 2001). Plaintiff cites the Racketeer Influenced and Corrupt Organizations Act, 18 U.S.C.
§ 1961 et seq. (RICO), and she alleges that the 29 named defendants engaged in a conspiracy to
defraud Brown and her estate. To plead a civil RICO claim, a plaintiff must make plausible
allegations that the defendants “(1) conducted the affairs (2) of an enterprise (3) through a pattern
(4) of rackeetering activity.” George v. Urban Settlement Servs., 833 F.3d 1242, 1248 (10th Cir.
2016). The complaint contains a lengthy series ofunconnected allegations concerning the purported
mistreatment of Brown and her estate, but there is simply no plausible way to view the defendants’
alleged conduct as a single enterprise for the purpose of a RICO claim. Plaintiff has also not
identified any specific illegal acts that could qualify as “racketeering activity,” and plaintiffs
rambling complaint does not allege a plausible RICO claim against any of the defendants. The Court
finds no basis to exercise federal question jurisdiction over this case, and plaintiffs claims should
be dismissed for lack of subject matter jurisdiction.
IT IS THEREFORE ORDERED that the complaint (Dkt. # 1) is hereby dismissed without
prejudice. A separate judgment of dismissal is entered herewith.
DATED this 26th day of June, 2019.
CLAIRE V. EAGAN

O

UNITED STATES DISTRICT JUDGE

3

United States District Court
Northern District of Oklahoma
I hereby certify that the foregoing
is e true copy of the original on file
in this court.
Mark C. McCartt
By

uan.

epufy

4

Case 4:19-cv-00331-CVE-JFJ Document 4 Filed in USDC ND/OK on 06/25/19 Page 1 of 1

UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF OKLAHOMA
ROSEMARY ANN LYNN,
Plaintiff,
*

v.
ANDREW GEORGE BROWN III,
Defendant.

)
)
)
)
)
)
)
)
)

Case No. 19-CV-0331-CVE-JFJ

JUDGMENT OF DISMISSAL
This matter has come before the Court for consideration and an opinion and order (Dkt. #3)
dismissing plaintiffs case for lack of subject matter jurisdiction has been entered. A judgment of
dismissal of plaintiffs claims is hereby entered.
IT IS SO ORDERED this 25th day of June, 2019.

CLAIRE V. EAGAN
UNITED STATES DISTRICT JUDGE

Case 4:19-cv-00332-CVE-JFJ Document 3 Filed in USDC ND/OK on 06/26/19 Page 1 of 3

UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF OKLAHOMA

ROSEMARY ANN LYNN,
w

*

Plaintiff,
v.
ANDREW GEORGE BROWN III et al,
Defendants.

)
)
)
)
)
)
)
)
)

Case No. 19-CV-0332-CVE-JFJ

OPINION AND ORDER
Now before the Court is plaintiffs complaint (Dkt. #1). Plaintiff is proceeding pro se and,
consistent with Supreme Court and Tenth Circuit precedent, the Court will construe her pro se
pleading liberally. See, e.g., Haines v. Kemer, 404 U.S. 519, 520 (1972); Gaines v. Stenseng, 292
F.3d 1222, 1224 (10th Cir. 2002). On June 21,2019, plaintiff filed a pro se complaint alleging that
29 defendants engaged in a conspiracy to gain control over Audrey Brown and her assets. Of the 29
defendants named in the complaint, all but two are identified as citizens ofOklahoma for the purpose
of diversity jurisdiction, and plaintiff alleges that she is a citizen of Oklahoma. Plaintiff claims that
Brown named plaintiff as Brown’s legal guardian in the event that Brown was unable to manage her
own affairs. Id at 8-9. However, plaintiff claims that certain defendants forged signatures on legal
documents and sought to have Brown declared incompetent to manage her own affairs, and
defendants initiated proceedings to have plaintiff removed as Brown’s guardian. Id at 11. Plaintiff
alleges that the guardianship proceedings were a sham and the state court judge “allowed [the
defendants] to utilize her court as the backdrop for their racketeering schemes.” Id at 16. Plaintiff
seeks damages in excess of $75,000. Id. at 8.

6

Case 4:19-cv-00331-CVE-JFJ Document 3 Filed in USDC ND/OK on 06/25/19 Page 2 of 3

Federal courts are courts of limited jurisdiction, and there is a presumption against the
exercise of federal jurisdiction. Merida Delgado v. Gonzales, 428 F.3d 916, 919 (10th Cir. 2005);
Penteco Corn. Ltd. Partnership- 1985A v. Union Gas System, Inc., 929 F.2d 1519,1521 (10th Cir.
1991).
%

The party invoking federal jurisdiction has the burden to allege jurisdictional facts

demonstrating the presence of federal subject matter jurisdiction. McNutt v. General Motors
Acceptance Corp. of Indiana, Inc., 298 U.S. 178, 182 (1936) (“It is incumbent upon the plaintiff
properly to allege the jurisdictional facts, according to the nature of the case.”); Montoya v. Chao,
296 F.3d 952,955 (10th Cir. 2002) (“The burden of establishing subject-matterjurisdiction is on the
party asserting jurisdiction.”). The Court has an obligation to consider whether subject matter
jurisdiction exists, even if the parties have not raised the issue. The Tenth Circuit has stated that
“[fjederal courts ‘have an independent obligation to determine whether subject-matter jurisdiction
exists, even in the absence of a challenge from any party, ’ and thus a court may sua sponte raise the
question of whether there is subject matter jurisdiction ‘at any stage in the litigation.’” Image
Software, Inc, v. Reynolds & Reynolds Co.. 459 F.3d 1044,1048 (10th Cir. 2006).
The complaint alleges that plaintiff seeks damages in excess of “the minimal jurisdictional
limits of Tulsa County District Courts” and that venue is proper in this Court. However, the
complaint does not include any allegations concerning federal jurisdiction over plaintiffs claims.
For the Court to have jurisdiction under 28 U.S.C. 1332, plaintiff must allege that the parties are
citizens of different states and that the amount in controversy exceeds $75,000. The complaint
alleges that plaintiff and defendant are citizens of Oklahoma. Consequently, the parties are not
diverse and there is no basis for the Court to exercise diversity jurisdiction over this case. The Court
will consider whether plaintiffs complaint could be construed to allege a claim arising under federal
2

1

I

7

Case 4:19-cv-00331-CVE-JFJ Document 3 Filed in USDC ND/OK on 06/25/19 Page 3 of 3

law. Generally, the “well-pleaded complaint” rule requires that the federal question appear on the
face of the plaintiffs properly pleaded complaint. See Garley v. Sandia Corp., 236 F.3d 1200,1207
(10th Cir. 2001). Plaintiff does not cite a federal statute or allege that her constitutional rights were
violated, and her complaint cannot be construed to assert a claim arising under federal law. The
*

Court finds no basis to exercise federal question jurisdiction over this case, and plaintiffs claims
should be dismissed for lack of subject matter jurisdiction.
IT IS THEREFORE ORDERED that the complaint (Dkt. # 1) is hereby dismissed without
prejudice. A separate judgment of dismissal is entered herewith.
DATED this 25th day of June, 2019.

CajlZul- "/

----

CLAIRE V. EAGAN CD
UNITED STATES DISTRICT JUDGE

United States District Court
Northern District of Oklahoma
I hereby certify that the foregoing
is a true copy of the original on file
in this court.
Mark C. McCartt
By

3

l&y2
■Deputy'’

8

Case 4:19-cv-00332-CVE-JFJ Document 4 Filed in USDC ND/OK on 06/26/19 Page 1 of 1

UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF OKLAHOMA

ROSEMARY ANN LYNN,
V'

Plaintiff,
*

v.
ANDREW GEORGE BROWN III et al.,
Defendants.

)
)
)
)
)
)
)
)
)

Case No. 19-CV-0332-CVE-JFJ

JUDGMENT OF DISMISSAL
This matter has come before the Court for consideration and an opinion and order (Dkt. # 3)
dismissing plaintiffs case for lack of subject matter jurisdiction has been entered. A judgment of
dismissal of plaintiff s claims is hereby entered.
IT IS SO ORDERED this 26th day of June, 2019.

CjU^KJLr- V
CLAIRE V. EAGAN
UNITED STATES DISTRICT JUDGE

9

Case 4:19-cv-00332-CVE-JFJ Document 16 Filed in USDC ND/OK on 02/07/20 Page 1 of 15
Appellate Case: 19-5062

Document: 010110301290

Date Filed: 02/07/2020

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

t

ROSEMARY ANN LYNN.

Page: 1

FILED
United States Court of Appeals
Tenth Circuit
February 7, 2020
Christopher M. Wolpert
Clerk of Court

Plaintiff - Appellant,

i

v.
ANDREW GEORGE BROWN, III,

No. 19-5062
(D.C. No. 4:19-CV-00331-CVE-JFJ)
(N.D. Okla.)

Defendant - Appellee.

ROSEMARY ANN LYNN,
Plaintiff - Appellant,
v.
ANDREW GEORGE BROWN, III, an
individual; MARY JEAN BAGWELLHENDERSHOTT, an individual; SUSAN
BOYD, an individual; MELISSA
TAYLOR, an individual; EMILY
CRAIN, an individual; THEODORE
RIESLING, an individual a/k/a Ted;
RANDALL ALLEN GILL, an individual;
ROBYN OWENS, an individual;
KIMBERLY BIEDLER SCHUTZ, an
individual; REBECCA WOODHUNTER, an individual; PHILLIP
FEIST, an individual a/k/a Phil; JON
BRIGHTMIER, an individual;
MICHAEL LINSCOTT, an individual;
NANCY DALE, an individual; RANDY
WHITWORTH, an individual; CLARK
WILLIAMS, an individual; HELEN
HOLMES-LATIMER, an individual;
TERRY HORWATH BITTING, an

No. 19-5063
(D.C. No. 4:19-CV-00332-CVE-JFJ)
(N.D. Okla.)

10

Case 4:19-cv-00332-CVE-JFJ Document 16 Filed in USDC ND/OK on 02/07/20 Page 2 of 15
Appellate Case: 19-5062

t

Document: 010110301290

Date Filed: 02/07/2020

Page: 2

individual; FAUST BIANCO, JR., an
individual; TERESE HALL, an
individual; JAMES CAMPBELL, an
individual; AMY REA, an individual;
MATTHEW BROWN, an individual;
SIOK MCKAY, an individual; SAINT
FRANCIS EMPLOYEE FEDERAL
CREDIT UNION, a member-owned
Financial Cooperative and Financial
Banking Association, licensed and doing
business in Oklahoma; EDWARD
JONES, a National Investment, Banking,
and Financial Association providing
Wealth Management, Brokerage,
Corporation, authorized to conduct
business in Oklahoma; CHARLES
SCHWAB, a National Banking
Association, providing Banking, Wealth
Managment, Investments, banking, and a
Financial Association, authorized to
conduct financial and banking services in
Oklahoma; US TRUST BANK OF
AMERICA, a Wealth Managment,
Financial Services Association Operating
as US Trust, however owned by Bank of
America, a National Banking Association
authorized to conduct and operate in
Oklahoma; PURVIEW LIFE TULSA,
a/k/a Select Care Managment; JOHN
DOES, sued as John Does 1-100; JANE
DOES, sued as Jane Does 1-100; DOE
ENTITIES, sued as Doe Entities 1-100,
inclusive,
Defendants - Appellees.
< i

ORDER AND JUDGMENT*
After examining the briefs and appellate record, this panel has determined
unanimously that oral argument would not materially assist in the determination of
this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore
ordered submitted without oral argument. This order and judgment is not binding
2

11

Case 4:19-cv-00332-CVE-JFJ Document 16 Filed in USDC ND/OK on 02/07/20 Page 3 of 15
Appellate Case: 19-5062

Document: 010110301290

Date Filed: 02/07/2020

Page: 3

Before MATHESON, KELLY, and PHILLIPS, Circuit Judges.

Rosemary Ann Lynn, appearing pro se, appeals from the district court’s
i

orders dismissing her complaint against Defendant Andrew George Brown, III
(No. 19-5062) and a second complaint against Mr. Brown and a host of other
defendants (No. 19-5063) for lack of subject-matter jurisdiction.1 She has also
moved for expedited consideration of her appeal in No. 19-5063. Exercising
appellate jurisdiction under 28 U.S.C. § 1291, we affirm both of the district court’s
orders and deny her motion to expedite as moot.

BACKGROUND
Ms. Lynn filed the complaints underlying her appeals in the U.S. District
Court for the Northern District of Oklahoma. Though her allegations in these related
cases are difficult to follow in many respects, together they appear to allege that
Ms. Lynn provided services to Mr. Brown’s elderly sister, Audrey Louise Brown
(Audrey), from 2008 through 2017. She claims that in September 2017, Audrey
executed documents that appointed Ms. Lynn as Audrey’s “guardian, caregiver,
trustee, beneficiary, devisee, legatee, and personal representative of the Audrey

precedent, except under the doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value consistent with
Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.
i

We address these appeals in a single order because the facts alleged by
Ms. Lynn in the two complaints overlap, as do some of the relevant legal standards.
3

12

Case 4:19-cv-00332-CVE-JFJ Document 16 Filed in USDC ND/OK on 02/07/20 Page 4 of 15
Appellate Case: 19-5062

Document: 010110301290

Date Filed: 02/07/2020

Page: 4

Louise Brown Estate,” No. 19-5063 R. at 14, and gave her full control over Audrey’s
considerable estate.2 Mr. Brown then apparently instituted proceedings in Tulsa
County Probate Court that resulted in Audrey being declared incompetent and
removed from Ms. Lynn’s care. Ms. Lynn complains that the probate court also
%

removed her as Audrey’s guardian and appointed a guardian ad litem and other
temporary and then permanent guardians for Audrey, as well as a conservator to
administer Audrey’s property and assets. It also appears from Ms. Lynn’s allegations
that the probate court invalidated the documents that purportedly gave her control
over Audrey and her assets and made her the beneficiary of Audrey’s estate. Both
complaints also include other rambling and conclusory allegations about actions
taken by different individuals and entities with respect to Audrey and/or her estate.
Against this backdrop, Ms. Lynn’s first complaint asserts claims for
defamation and intentional infliction of emotional distress against Mr. Brown, based
on allegedly false statements he made about her in legal documents filed in the
guardianship proceedings. We refer to this action hereinafter as the “Defamation
Complaint.” Ms. Lynn did not assert a basis for federal jurisdiction in this complaint,
but specifically alleged in it that both she and Mr. Brown were citizens of Oklahoma.
After sua sponte considering the issue, the district court dismissed the complaint
without prejudice for lack of subject-matter jurisdiction, holding there was no basis
for it to exercise diversity jurisdiction over her state law claims and no federal

2 Ms. Lynn asserts in her appellate brief that the estate contains “hundreds of
millions of dollars.” No. 19-5063 Aplt. Br. at 6.
4

13

Case 4:19-cv-00332-CVE-JFJ Document 16 Filed in USDC ND/OK on 02/07/20 Page 5 of 15
Appellate Case: 19-5062

Document: 010110301290

Date Filed: 02/07/2020

Page: 5

question presented on the face of the complaint. Ms. Lynn timely appealed the
district court’s order of dismissal in Appeal No. 19-5062.
In her second complaint, Ms. Lynn sued Mr. Brown, the probate judge who
presided in the guardianship proceedings, the court-appointed guardians and
conservator, numerous attorneys, other named individuals and financial institutions,
and 200 unknown individuals and entities. Her complaint references the Racketeer
Influenced and Corrupt Organizations Act (RICO), 18 U.S.C. §§ 1961-1968, and we
refer to this complaint hereinafter as the “RICO Complaint.” Ms. Lynn asserted in
this complaint that the court had both diversity and federal-question jurisdiction.
Again acting sua sponte, the district court dismissed it without prejudice for lack of
subject-matter jurisdiction. In so doing, the district court held diversity jurisdiction
was lacking because there was not complete diversity among the parties, most of
whom Ms. Lynn alleged were citizens of Oklahoma. It also found there was no basis
on which to exercise federal-question jurisdiction because Ms. Lynn had fallen far
short of stating a RICO claim. Ms. Lynn timely appealed the district court’s order of
dismissal, and that appeal is before us as No. 19-5063.
DISCUSSION
We review the district court’s dismissal of Ms. Lynn’s complaints for lack of
subject matter jurisdiction de novo. Blue Valley Hosp., Inc. v. Azar, 919 F.3d 1278,
1283 (10th Cir. 2019). Federal courts are courts of limited jurisdiction, and
Ms. Lynn, as the party seeking to invoke federal jurisdiction, had the burden of
establishing the court’s jurisdiction over each of her complaints. See Becker v. Ute
5

14

Case 4:19-cv-00332-CVE-JFJ Document 16 Filed in USDC ND/OK on 02/07/20 Page 6 of 15
Appellate Case: 19-5062

Document: 010110301290

Date Filed: 02/07/2020

Page: 6

Indian Tribe of Uintah & Ouray Reservation, 770 F.3d 944, 946-47 (10th Cir. 2014).
As relevant here, this required her to establish either diversity jurisdiction as
provided by 28 U.S.C. § 1332 or federal-question jurisdiction under 28 U.S.C.
§ 1331. See Home Depot U.S.A., Inc. v. Jackson, 139 S. Ct. 1743, 1746 (2019)
%

(describing federal courts’ limited jurisdiction). In determining whether Ms. Lynn
met this burden, we take as true all “well-pled factual allegations,” Blue Valley
Hosp., 919 F.3d at 1283, that is, all allegations that are “plausible, non-conclusory,
and non-speculative,” Dudnikov v. Chalk & Vermilion Fine Arts, Inc., 514 F.3d 1063,
1070 (10th Cir. 2008) (defining “well-pled” allegations). Because Ms. Lynn is acting
pro se in these actions, we also construe her filings liberally, but we do not act as her
advocate. Yang v. Archuleta, 525 F.3d 925, 927 n.l (10th Cir. 2008).
A. Defamation Complaint
Most of Ms. Lynn’s arguments in her brief to this court are irrelevant to the
jurisdictional question decided by the district court.3 To the extent Ms. Lynn
addresses the court’s jurisdiction in her brief, she merely declares that
federal-question jurisdiction exists because her admittedly state-law defamation
claim “echoed in federal law under the First Amendment.” No. 19-5062 Aplt. Br.
at 13. She cites no authority supporting this novel proposition and there is none. Her
suggestion that the district court had some ulterior motive in sua sponte dismissing

3 Ms. Lynn devotes the majority of her brief to arguing the merits of her
defamation claim, asserting that she properly pled this state-law claim, and accusing
Mr. Brown and others of various misdeeds.
6

15

Case 4:19-cv-00332-CVE-JFJ Document 16 Filed in USDC ND/OK on 02/07/20 Page 7 of 15
Appellate Case: 19-5062

Document: 010110301290

Date Filed: 02/07/2020

Page: 7

her complaint is also unsupported and ignores that “[fjederal courts have an
independent obligation to determine whether subject-matter jurisdiction exists, even
in the absence of a challenge from any party.”4 Image Software, Inc. v. Reynolds &
V

Reynolds Co., 459 F.3d 1044, 1048 (10th Cir. 2006) (internal quotation marks
*

omitted). “[Tjhus a court may sua sponte raise the question of whether there is
subject matter jurisdiction at any stage in the litigation,” id. (internal quotation marks
omitted), and “must dismiss the cause at any stage of the proceedings in which it
becomes apparent that jurisdiction is lacking,” Pueblo ofJemez v. United States,
790 F.3d 1143, 1151 (10th Cir. 2015) (emphasis added) (internal quotation marks
omitted). We have reviewed Ms. Lynn’s complaint in this action and agree that her
allegations fail to establish any basis for federal jurisdiction. The district court
therefore properly dismissed her complaint for lack of subject matter jurisdiction.
B. RICO Complaint
The question presented in this appeal is whether the district court properly held
that Ms. Lynn failed to allege a claim arising under federal law despite referencing
the RICO Act in her complaint.5 While claims asserted under the RICO Act

4 Ms. Lynn’s references to the district court judge as a “Respondent” in the
caption of her briefs in both appeals and in her argument are also mistaken. The district
court judge is not a party to either appeal or the underlying actions. We also find no
support in the record for Ms. Lynn’s suggestion that the district court’s dismissal of her
complaints was motivated by bias.
5 Ms. Lynn’s arguments regarding personal jurisdiction, service of process,
venue, and other unrelated topics in her appellate brief are irrelevant to deciding this
question.
7

16

Case 4:19-cv-00332-CVE-JFJ Document 16 Filed in USDC ND/OK on 02/07/20 Page 8 of 15
Appellate Case: 19-5062

Document: 010110301290

Date Filed: 02/07/2020

Page: 8

ordinarily qualify for federal-question jurisdiction, “jurisdiction under § 1331 exists
only where there is a colorable claim arising under federal law.” McKenzie v. U.S.
Citizenship & Immigration Servs., Dist. Dir., 761 F.3d 1149, 1156 (10th Cir. 2014)
(internal quotation marks omitted). “[A] court may dismiss for lack of subject-matter
■ 3

jurisdiction when the [purported federal] claim is so insubstantial, implausible,
u

foreclosed by prior decisions of this Court, or otherwise completely devoid of merit
as not to involve a federal controversy.” Id. at 1156-57 (internal quotation marks
omitted). The district court held that this was the case here, and we agree.
A civil RICO claim may be brought by “[a]ny person injured in his business or
property by reason of a violation of [18 U.S.C.] section 1962.” 18 U.S.C. § 1964(c).
Ms. Lynn alleges in her complaint that the defendants violated the entire RICO
statute, but as best we can determine she is attempting to allege that each of them
violated § 1962(c).6 To state a civil RICO claim for violation of § 1962(c), Ms. Lynn
was required to “plausibly allege that the defendants each (1) conducted the affairs
(2) of an enterprise (3) through a pattern (4) of racketeering activity.” Safe Streets

6 This conclusion is consistent with Ms. Lynn’s argument in support of her
motion for a temporary restraining order in the district court, in which she asserted
that the defendants had violated § 1962(c). In her appellate brief, however, Ms. Lynn
declares that her complaint also alleges that her business or property were injured as
a result of violations of § 1962(a) (prohibiting investment of income derived from a
pattern of racketeering activity in an enterprise engaged in interstate or foreign
commerce), § 1962(b) (prohibiting acquisition or maintenance through a pattern of
racketeering activity of an interest in or control of an enterprise engaged in
interstate or foreign commerce), and § 1962(d) (prohibiting conspiracy to violate
§ 1962(a)-(c)). But Ms. Lynn does not point to any allegations supporting this
assertion and we found none in our careful review of her complaint.
8

17

Case 4:19-cv-00332-CVE-JFJ Document 16 Filed in USDC ND/OK on 02/07/20 Page 9 of 15
Appellate Case: 19-5062

Document: 010110301290

Date Filed: 02/07/2020

Page: 9

All. v. Hickenlooper, 859 F.3d 865, 882 (10th Cir. 2017) (internal quotation marks
omitted). Ms. Lynn’s complaint does not state a colorable RICO claim against any of
the defendants for a variety of reasons, only some of which we address here.
First, Ms. Lynn’s attempt to allege a RICO enterprise is completely devoid of
merit. As the district court noted, Ms. Lynn’s rambling complaint alleges that
different defendants mistreated Audrey and/or her estate in different ways. Ms. Lynn
tries to cast this alleged mistreatment in RICO terms by alleging that the named and
unnamed defendants “were working as a single entity and enterprise to commit
extrinsic fraud, intrinsic fraud, extortion, kidnapping, undue influence, perjury,
forgery, mail, and wire fraud through communications.” No. 19-5063 R. at 12. But
this apparent attempt to allege an “association-in-fact” RICO enterprise7 fails not
only because it is conclusory, see Hall v. Bellmon, 935 F.2d 1106, 1110 (10th Cir.
1991) (holding that a pro se litigant’s “conclusory allegations without supporting
factual averments are insufficient to state a claim on which relief can be based”), but
also because Ms. Lynn’s complaint does not connect the defendants’ different
conduct to the alleged enterprise or provide a plausible basis for finding that the
defendants were and are functioning as a continuing unit, see Boyle v. United States,
556 U.S. 938, 944-45 (2009) (defining an association-in-fact RICO enterprise as a

7 RICO defines an “enterprise” as “any individual, partnership, corporation,
association, or other legal entity, and any union or group of individuals associated in fact
although not a legal entity.” 18 U.S.C. § 1961(4). Because the collection of defendants
named by Ms. Lynn is not a legal entity, the only potential RICO enterprise that might be
applicable here is the last portion of this definition, regarding association-in-fact
enterprises.
9

18

Case 4:19-cv-00332-CVE-JFJ Document 16 Filed in USDC ND/OK on 02/07/20 Page 10 of 15
Appellate Case: 19-5062

Document: 010110301290

Date Filed: 02/07/2020

Page: 10

“group of persons associated together for a common purpose of engaging in a course
of conduct,” which is demonstrated “by evidence of an ongoing organization, formal
or informal, and by evidence that the various associates function as a continuing unit”
(internal quotation marks omitted)).
Ms. Lynn’s complaint similarly falls far short of plausibly alleging
“racketeering activity” by the defendants. Only some of the wrongful conduct listed
by Ms. Lynn—namely mail and wire fraud, extortion, and kidnapping—qualify as
“racketeering activity” that might support a RICO claim. See 18 U.S.C. § 1961(1);
see also Beck v. Prupis, 529 U.S. 494, 497 n.2 (2000) (“Section 1961(1) contains an
exhaustive list of acts of‘racketeering,’ commonly referred to as ‘predicate acts.’”).
And Ms. Lynn was required to do more than just list these alleged predicate acts to
state a RICO claim—she needed to plead the elements of each predicate act, and to
do so with particularity with respect to those sounding in fraud. See Robbins v.
Wilkie, 300 F.3d 1208, 1211 (10th Cir. 2002); Farlow v. Peat, Marwick, Mitchell &
Co., 956 F.2d 982, 989 (10th Cir. 1992). Ms. Lynn did not come close to doing so. 8
For example, to plead the predicate acts of mail and wire fraud, Ms. Lynn
needed to “plausibly allege the existence of a scheme or artifice to defraud or obtain

8

In her appellate brief, Ms. Lynn complains of additional alleged
wrong-doing by defendants that occurred after the district court dismissed her
complaint. We do not consider these additional allegations in assessing whether she
stated a colorable RICO claim because these new allegations were not included in her
complaint or otherwise presented to the district court. See Regan-Touhy v. Walgreen
Co., 526 F.3d 641, 648 (10th Cir. 2008) (“We generally limit our review on appeal to the
record that was before the district court when it made its decision”).
10

19

Case 4:19-cv-00332-CVE-JFJ Document 16 Filed in USDC ND/OK on 02/07/20 Page 11 of 15
Appellate Case: 19-5062

Document: 010110301290

Date Filed: 02/07/2020

Page: 11

money or property by false pretenses, representations or promises, and that [the
alleged enterprise] communicated, or caused communications to occur, through the
U.S. mail or interstate wires to execute that fraudulent scheme.” George v. Urban
Settlement Servs., 833 F.3d 1242, 1254 (10th Cir. 2016) (internal quotation marks
omitted). “And because Fed. R. Civ. P. 9(b) requires a plaintiff to plead mail and
wire fraud with particularity,” she was further required to plead “the time, place and
contents of the false representation^], the identity of the party making the false
statements and the consequences thereof’ as relevant to the alleged mail and wire
fraud. Id. (internal quotation marks omitted). Ms. Lynn’s complaint is devoid of
allegations meeting this standard. In addition, to the extent Ms. Lynn pled any of the
elements of kidnapping or extortion in her complaint, she offered only “labels and
conclusions” and “naked assertions devoid of further factual enhancement.” Ashcroft
v. Iqbal, 556 U.S. 662, 678 (2009) (internal quotation marks and alterations omitted).
Such allegations are insufficient even under the more relaxed pleading standard of
Fed. R. Civ. P. 8. See id.
Accordingly, we agree with the district court that Ms. Lynn failed to state a
colorable RICO claim, and that the district court therefore lacked federal-question
jurisdiction over her purported RICO Complaint. As it is also indisputable that
diversity jurisdiction was lacking, the district court properly dismissed this complaint .
for lack of subject matter jurisdiction.9

9 Contrary to Ms. Lynn’s argument here, the district court was not required to
allow her discovery to cure these deficiencies.
11

.

20

Case 4:19-cv-00332-CVE-JFJ Document 16 Filed in USDC ND/OK on 02/07/20 Page 12 of 15
Appellate Case: 19-5062

Document: 010110301290

Date Filed: 02/07/2020

Page: 12

CONCLUSION
We affirm the district court’s dismissal of Ms. Lynn’s complaints. We also
deny Ms. Lynn’s motion for expedited consideration in No. 19-5063 as moot.
Entered for the Court
Paul J. Kelly, Jr.
Circuit Judge

12

Case 4:19-cv-00332-CVE-JFJ Document 16 Filed in USDC ND/OK on 02/07/20 Page 13 of 15
Appellate Case: 19-5062

Document: 010110301297

Date Filed: 02/07/2020

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
OFFICE OF THE CLERK
Byron White United States Courthouse
1823 Stout Street
Denver, Colorado 80257
(303)844-3157
Christopher M. Wolpert
Clerk of Court

February 07,2020

Jane K. Castro
Chief Deputy Clerk

Ms. Rosemary Ann Lynn
P.O. Box 701432
Tulsa, OK 74170
RE:

19-5062,19-5063, Lynn v. Brown
Dist/Ag docket: 4:19-CV-00331-CVE-JFJ

Dear Appellant:
Enclosed is a copy of the order and judgment issued today in this matter. The court has
entered judgment on the docket pursuant to Fed. R. App. P. Rule 36.
Please contact this office if you have questions.
Sincerely,

Christopher M. Wolpert
Clerk of the Court

CMW/mlb

22

Case 4:19-cv-00332-CVE-JFJ Document 16 Filed in USDC ND/OK on 02/07/20 Page 14 of 15

Stephanie Clark
From:
Sent:
To:

Subject

t*-

cal O_cmecf_notify@ca 10.uscourts.gov
Friday, February 7, 2020 11:33 AM
CM-ECF Intake OKND
19-5062 Lynn v. Brown "Case termination for order and judgment" (4:19-CV-00331-CVE-JFJ)

***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits attorneys of record and
parties in a case (including pro se litigants) to receive one free electronic copy of all documents filed electronically, if
receipt is required by law or directed by the filer. PACER access fees apply to all other users. To avoid later charges,
download a copy of each document during this first viewing.
Tenth Circuit Court of Appeals
Notice of Docket Activity
The following transaction was entered on 02/07/2020 at 10:29:40 AM MST and filed on 02/07/2020
Case Name:

Lynn v. Brown

Case Number:

19-5062

Document(s):

Document(s)

Docket Text:
[10716309] Affirmed; Terminated on the merits after submissions without oral hearing; Written, signed, unpublished.
Judges Matheson, Kelly (authoring judge) and Phillips. Mandate to issue. [19-5062,19-5063]
Notice will not be electronically mailed to the following as the Court does not have a valid email address on file or the
person has not consented to service via email. If appropriate, notice will be delivered by other means to:
Ms. Rosemary Ann Lynn
P.O. Box 701432
Tulsa, OK 74170
The following document(s) are associated with this transaction:
Document Description: OJ
Original Filename: 19-5062.pdf
Electronic Document Stamp:
[STAMP acecfStamp_ID=1104938855 [Date=02/07/2020] [FileNumber=10716309-0]
[13dd8f0b06c247900eb4c5a52bf698236df0dclcf21da837606aal950bl08ced38c35f07780ee9efcbl8d6c769e881a8df86
89fa9b26bff2507e8d616b86c20a]]
Document Description: Order Judgment Cover Letter
Original Filename: /opt/ACECF/live/forms/MichaeIBarajas_195062_10716309_136.pdf
Electronic Document Stamp:
[STAMP acecfStamp_lD=1104938855 [Date=02/07/2020] [FileNumber=10716309-l]
[dfd5bc700679a673119a8f97fcce3b5dc3894694de20e096a719ed2ce2f846e26b77559bb0a49a3e76daf6d077925fl7357
l

1

*

*
r

!

m

i “

Case 4:19-cv-00332-CVE-JFJ

23

Document 16 Filed in USDC ND/OK on 02/07/20 Page 15 of 15

3d76b0e3267a5ca6a3243b7dlef39]]
Recipients:
•

Ms. Rosemary Ann Lynn

-r

United States District Court
Northern District of Oklahoma

In,ahitsrU£°Py
fi
By

Mark C. McCartt

-cvXAl ,
Deputy

2

Additional material
from this filing is
available in the
Clerk's Office.

